January 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Box v. Planned Parenthood of Indiana and Kentucky, S. Ct. No. 19-816
Dear Mr. Harris:
I am counsel for respondent in the above-captioned case. The petition for a writ of
certiorari in this case was filed on December 27, 2019 and was placed on the Court’s docket that
same day. Respondent’s response to the petition is due on January 27, 2020.
Respondent respectfully requests, under Rule 30.4 of the Rules of this Court, an
extension of time to and including February 26, 2020, within which to file a response. This is
respondent’s first request for an extension of time. Counsel for respondent has consulted with
Indiana Solicitor General Thomas Fischer, who is counsel of record for petitioners, and who has
no objection to this extension of time.
This extension is requested due to the press of other matters, including counsel’s preexisting professional commitments, and to permit respondent adequate time to consider and, if
necessary, respond to any briefs of amici curiae filed on or before January 27, 2020.
Thank you for your consideration in this matter.
Sincerely,

/s/Jennifer Sandman
Jennifer Sandman
Deputy Director
Planned Parenthood Federation of America

cc: Thomas M. Fisher, Counsel for Petitioners

